AUDIT OF THE SEATTLE CENTRAL LINK
   LIGHT RAIL PROJECT’S INITIAL
             SEGMENT
       Federal Transit Administration

       Report Number: MH-2003-046
         Date Issued: July 7, 2003
           U.S. Department of
                                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Audit of the Seattle Central Link Light                                    Date:    July 7, 2003
           Rail Project’s Initial Segment
           MH-2003-046

  From:    Alexis M. Stefani                                                               Reply to
                                                                                           Attn. of:   JA-40
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Federal Transit Administrator

           This report provides the results of our audit of the Initial Segment of the Seattle
           Central Link Project, a 23.5-mile light rail system in King County, Washington.
           The Initial Segment replaces the University Link proposed in 1996 and approved
           for a $500 million Full Funding Grant Agreement (FFGA) by the former Secretary
           of Transportation in January 2001. According to the project’s sponsor, Sound
           Transit,1 the project will reduce travel times, improve transit reliability, and
           increase transportation capacity in the Central Puget Sound region’s most
           congested corridor. The estimated cost of the Initial Segment is $2.437 billion,
           making it one of the largest transit projects in the United States.

           On April 4, 2001 we issued a report on the Department of Transportation’s
           (Department) January 19, 2001 approval of the FFGA for the University Link
           Project.2 At the time the project was approved, major changes in the project’s
           tunnel alignment were still being discussed. In addition, the project’s cost had
           exceeded original estimates by $1 billion and its revenue operation date had
           increased by 2 ½ years. We recommended that the project not be funded until
           Sound Transit identified and disclosed all issues that could materially impact the
           project’s cost, schedule, and scope. Acting on the report’s recommendations, the
           current Secretary of Transportation held funding for the project in abeyance until a
           number of financial and timing issues were resolved and Congress had time to
           adequately review the grant agreement.


           1
               Also known as the Central Puget Sound Regional Transit Authority.
           2
               Interim Report on Seattle Central Link Light Rail Project, OIG Report No. IN-2001-051, April 4, 2001.
                                                                                 2


Since that time, Sound Transit has significantly changed its plans for the first
section of the light rail system, from a 7.4-mile alignment starting at the
University of Washington north of Seattle and ending past the downtown area at
Beacon Hill to a 13.9-mile alignment starting in the Downtown Seattle Transit
Tunnel and ending at a park-and-ride facility 1.6 miles short of Sea-Tac
International Airport. The maps in Figure 2 below provide an overview of the
original and revised first sections of the light rail system.

Based on cost per mile, the Initial Segment is the fourth most costly ($174 million
per mile) light rail project with an existing or pending FFGA. (See Figure 1.) The
FFGA request for the revised segment, which was submitted to the Federal Transit
Administration (FTA) for approval in January 2003, proposes a 20.5 percent
Federal share of $500 million. This percentage is considerably less than the
average percentage of Federal contribution for other light rail construction
projects.




                           Figure 1
               Comparison of New Starts Light Rail
                    Projects Cost Per Mile
             $300
  Millions




             $200
             $100
               $0
                                     y
                                    is

                    ew gen




                                  it y




                                     s
                       Po ty
                                  tle




                                  go


                                    a
                        ne s




                        An ir
                                    s




                                    d
                                     r




                   Sa Ci t
                                 ve




                                 le
                                 hi
                                 la




                                 ol




                                 la
                  Je ant
                                an
                                  i
                                C




                                C
                               at




                               ie




                            ge
                               p




                           .C
                             al




                            ap
                           en




                               r



                           rt l
                         em




                          ke
                          Be
                          Se




                           D



                          ey
                             l
                           k
                          D




                          At
                         ar
                         D




                        St
                       La

                        n



                       rs
                       M



                      th
                     in




                     s
                  or




                   lt
                  M




                 Lo
                 N



                Sa
                N
                                                                                                                          3



                            Figure 2: Central Link Light Rail (Seattle, Washington)
               Original FFGA for University Link                                  New FFGA for the Initial Segment
               (Approved by FTA in January 2001, and will be                      (Submitted to FTA for approval in
               terminated when new FFGA is approved )                             January 2003)




                                                         NE 45th




                                                                              Westlake

University
Link
- NE 45th to
  Lander

                                                                    Seattle
                                                                   Downtown
                                                                     Area


                                                         Lander



                                                                                                                                Initial
                                                                                                                                Segment
                                                                                                                                - Westlake to
                                                                                                                                   South 154th



                                                                              South 154th




                                                                              Airport




                  Original FFGA                                                           New FFGA Request
                        7.4 Miles                           Segment Length                    14 Miles
                  $ 2.602 Billion                           Estimated Cost               $ 2.437 Billion
                  $ 352 Million                             Cost per Mile                $ 174 Million
                  $ 500 Million                             Federal Share                $ 500 Million
                  November 2009                             Completion Date                 July 2009
                  87,200 (including 39,800 new riders)      Avg. Daily Riders            42,500 (including 16,000 new riders)
                                                                                   4


Concerned about issues reported by the Office of Inspector General (OIG) relating
to the first FFGA, the former Chairman of the House Appropriations Committee,
Subcommittee on Transportation and Related Agencies, requested that the OIG
review Sound Transit’s plans for the new 13.9-mile Initial Segment. Our
objectives were to:

   • Determine whether Sound Transit and FTA adequately addressed cost,
     funding, and schedule issues identified in our April 2001 report, and
     evaluate the reasonableness of estimates for the revised project;
   • Assess plans for safety and other issues related to running buses and trains
     in the downtown bus tunnel; and
   • Assess the reasonableness of FTA’s determination that this project
     constitutes a stand-alone system and would not require additional segments.

We were not requested to evaluate nor are we opining on the merits of other
transportation alternatives, such as expanding the Sounder Commuter Rail and
Regional Express Bus System, constructing High Occupancy Vehicles lanes or
building a monorail, or FTA’s criteria for rating the benefits of the Initial
Segment. We also did not assess Sound Transit’s plans for future segments of the
Central Link Light Rail, as they are not the subject of this FFGA application.

RESULTS IN BRIEF
In responding to the recommendations in our April 2001 report, Sound Transit has
significantly strengthened its proposal for constructing the project’s first segment.
FTA has also done a good job of examining the project’s scope, cost, funding, and
schedule. At this time, we find the Initial Segment’s cost, schedule and funding
representations to be reasonable for a project in the final design stages. Moreover,
Sound Transit has adequately addressed the safety issues related to operating
buses and trains in the tunnel and has met FTA’s requirements for a stand-alone
system even though the Initial Segment stops 1.6 miles short of the Sea-Tac
International Airport. Extending the Initial Segment to the airport would expand
the ridership of the system. For example, the airport station at the MARTA
system in Atlanta, Georgia, generates as many as 6,000 new daily passengers.

Sound Transit and the Port of Seattle, which operates Sea-Tac International
Airport, could not reach an agreement to include the airport extension in the Initial
Segment’s alignment. The Port of Seattle was reconsidering its airport expansion
plans and would not commit to design routes or decisions. However, in January
2003, Sound Transit and the Port of Seattle announced an agreement to complete
the extension by 2011—2 years after the Initial Segment is completed. Details of
                                                                                                                        5


the extension, such as the cost estimate, who will pay for it, and the alignment,
have not been settled.

In November 2002, voters of the State of Washington passed Initiative 776 to
eliminate, among other things, motor vehicle fees and taxes above a flat $30 fee,
including the 0.3 percent motor vehicle excise tax pledged to Sound Transit. As
reflected in Sound Transit’s Financial Plan, this tax is one of several revenue
sources for the Initial Segment. The constitutionality of Initiative 776 is on appeal
to the Washington Supreme Court. Because the court’s decision and/or
subsequent litigation creates uncertainty over the legal status of this important
revenue source for the Initial Segment, this report is recommending that Sound
Transit’s Board of Directors formally agree, in advance of final approval of the
FFGA, that alternative local revenues will promptly be committed to the project to
the extent that a funding deficit or shortfall is occasioned by the loss of excise tax
revenues and related fees.

In its July 3, 2003 response to the draft report, FTA concurred with the
recommendation, stating that it will request in writing that the Sound Transit
Board of Directors formally agree to actions specified in our recommendation.
FTA also stated it will not execute the FFGA prior to written notification from the
Board of their agreement, and that it will closely monitor Sound Transit’s
continuing financial responsibility to operate, maintain and reinvest in its existing
transit system as well as the Initial Segment, as is its practice under all FFGAs.

Cost and Schedule

Based on our audit and assessments by FTA’s two Project Management Oversight
Consultants (PMOC), the $2.437 billion3 project cost estimate and the July 2009
completion date are fair representations of the Initial Segment’s cost and schedule,
which are largely based on final design estimates. Final design is the last phase of
project development when project sponsors typically complete detailed project
specifications and cost estimates needed to request an FFGA. Sound Transit’s
design is 80 percent complete, and no major construction contracts have been
awarded.

Given the present stage of the project, we determined the cost estimate to be
reasonable, based on supporting detail for each cost item, underlying assumptions,
and the size of the contingency for the project. The purpose of the contingency is
to account for a possible future event or a condition arising from presently known

3
     Consistent with reporting requirements for other Federally funded transportation construction projects, the baseline
    cost estimate of $2.437 billion includes $201 million in debt interest incurred by the project’s 2009 completion date,
    but does not reflect at least $675 million in long term debt interest that Sound Transit estimates is allocable to the
    Initial Segment and payable between 2009 and 2025. After 2009, Sound Transit also will be required to fully service
    the outstanding debt.
                                                                                                                          6


or unknown causes that cannot be precisely quantified. At $375.1 million, the
contingency represents 15 percent of the total project budget, which is within
levels considered acceptable by industry standards and consistent with
contingency funds on other projects, such as the Woodrow Wilson Bridge in
Washington, D.C. At this time, the project’s completion date of July 2009 also
appears reasonable based on the 6 months of float time built into the schedule. In
addition, given that the project is in the later stages of final design, most of the
schedule risks have been identified.

Drawing upon our experiences with other projects, such as the Hiawatha Light
Rail System, Springfield Interchange, Bay Area Rapid Transit Airport Extension,
and Los Angeles Metro Red Line, cost escalation and delays are risks for projects
that face difficult and complex design and construction issues. While 80 percent
of the design work for the Initial Segment is complete, it is not uncommon for any
project at this stage of development to have risks similar to the ones identified in
our previous work. If contingencies budgeted for the Initial Segment are not
sufficient to mitigate these risks, under the terms of the FFGA, Sound Transit must
accept sole responsibility for the payment of cost overruns and will have to decide
which sources of local funding it will use should this occur.

Key to minimizing cost and schedule risks will be close monitoring of the project
as it moves from design to construction and prompt notification of the Board of
Directors and FTA should project costs increase or delays occur. Sound Transit
and FTA will need to carefully monitor the following areas.

       • Right-of-Way Acquisitions. As of May 31, 2003, 10 percent of the 760
         right-of-way parcels that Sound Transit must acquire by December 2004
         have been obtained. Parcels on the critical path,4 such as those on the
         Tukwila Freeway section, must be acquired by October 2004 or the
         completion of that segment and the entire project could be delayed. Sound
         Transit has budgeted $233 million for right-of-way purchases, including
         $44 million for contingencies representing about 12 percent of the overall
         contingency budget. However, our work on several projects shows that the
         cost of right-of-way acquisitions can be much higher than budgeted.

       • Designing/Constructing the Alignment Along the Tukwila Freeway
         Section. The design and construction of an elevated roadbed over three
         physically challenging areas of the Tukwila Freeway section—Interstate 5
         (a 12-lane freeway), the Burlington Northern Santa Fe-Union Pacific
         railroad yards (railroads), and the Duwamish River—will require safety and
         technical coordination with the Washington State Department of

4
    A critical path comprises a sequence of activities for completing a project that have no extra time included for delays.
    A lag in any of these activities could delay the project completion date.
                                                                                                                 7


            Transportation (WSDOT) and the railroad companies.                                    The planned
            completion date for this work is January 2008.

            Sound Transit is negotiating an agreement with the railroads to work on
            their property. However, as we have seen on other projects, such as the
            Springfield Interchange,5 design problems and disagreements over payment
            and coordination of field activities with railroads can cause delays and cost
            growth.

       • Coordinating Utility Relocations. Sound Transit is working to secure all
         necessary agreements on the payment for and timing of public and private
         utility relocations. As of June 12, 2003, Sound Transit remained in
         negotiations for two major agreements with Seattle City Light (Seattle’s
         municipal electric utility). As we found on our audit of the Hiawatha
         Corridor project,6 uncertainties over who will pay to relocate private
         utilities and the timing of these relocations can affect a project’s cost and
         schedule. Therefore, Sound Transit will need to secure the necessary
         agreements and ensure that the utility companies have sufficient resources
         to complete their relocations within specified time frames.

       • Tunneling on Beacon Hill. Any project involving tunneling faces the risk
         of potential cost escalation. As tunneling on Beacon Hill gets underway,
         Sound Transit may encounter ground settlement problems, physical
         constraints in the construction of the tunnel’s west portal, and contaminated
         materials requiring excavation. Some of these events would require
         environmental mitigation measures and increased tunneling costs.

            Unlike the estimate for tunneling on the University Link that grew by
            approximately $300 million shortly before FTA’s approval of the original
            FFGA, this time Sound Transit conducted a risk analysis for the
            construction of the Beacon Hill tunnel and included a 20 percent
            contingency in the cost estimate.            In essence, Sound Transit
            considered typical risks that can be encountered during tunnel construction
            and estimated a margin to cover the additional costs that may be incurred to
            deal with such risks, such as delays or special tunneling requirements.
            Moreover, 90 percent of the design work on the tunnel has been completed.
            Sound Transit’s Peer Review and Oversight Panel also conducted a design
            review and recommended constructing an exploratory test shaft to facilitate
            a detailed study of soil conditions and the extent of environmental
            mitigation that will be needed during excavation. This shaft, currently

5
    Springfield Interchange Project, OIG Report No. IN-2003-003, November 22, 2002.
6
    Review of the Hiawatha Corridor Light Rail Transit Project, OIG Report No. IN-2002-078, February 12, 2002.
                                                                                                           8


           underway, will enable Sound Transit and prospective bidders to better
           assess underground soil and groundwater conditions.

Funding

In contrast to the prior FFGA, the local funding identified for the Initial Segment
appears reasonable based on our review and that of the project’s Financial
Management Oversight Contractor (FMOC). However, we offer the following
two observations about Sound Transit’s financial commitment to the project.

      • Motor Vehicle Excise Tax. In November 2002, voters passed Initiative
        776 that would eliminate, among other things, motor vehicle fees and taxes
        above a flat $30 fee, including Sound Transit’s 0.3 percent motor vehicle
        excise tax. Sound Transit plans to use this revenue as one of several
        sources to repay the 1999 $350 million existing bond issuance, $7 million
        of which was used for the Initial Segment. The tax will also provide
        $187.47 million in direct funding for the project through 2009. Of this
        amount, Sound Transit’s records indicate that $72.76 million has been
        collected through 2002 and $114.71 million will be collected from 2003
        through 2009. In addition, Sound Transit plans to pledge accumulated
        motor vehicle excise taxes as one of three sources (in addition to sales and
        car rental taxes) in helping to secure $1.152 billion in future bonds to cover
        its remaining financial commitment to the project.

           In February 2003, a Washington Superior Court held that Initiative 776 was
           unconstitutional, ruling that, among other things, the Initiative introduces a
           second subject and the subjects of the Initiative were not identified in the
           ballot title.7 The State Attorney General’s office is defending the Initiative
           against a constitutional challenge brought by Sound Transit and others, and
           the Superior Court ruling is on appeal before the State Supreme Court.
           Although not directly at issue in the case, at oral arguments before the State
           Supreme Court on June 26, 2003, questions related to Sound Transit’s
           bonding and funding were raised by the Court. Sound Transit represented
           to the Court that the loss of future motor vehicle excise tax revenue would
           not leave it short of funds needed to complete the Initial Segment, but that
           it could affect other components of its system.8

           It is not our place to sort through all of the legal arguments; they are
           properly before the Supreme Court of Washington and its lower courts.

7
    Pierce County v. State of Washington, No. 02-2-35125-5 SEA, Memorandum and Order, pp. 31-32 (February 11,
     2003).
8
    Oral Argument of Central Puget Sound Regional Transit Authority before the Supreme Court of the State of
     Washington, No. 73607-3, June 26, 2003.
                                                                           9


Until such time as the Courts resolve these issues, there will be uncertainty
over an important revenue source for Sound Transit.

While Initiative 776 does not impact the motor vehicle excise tax revenues
that Sound Transit had collected through December 2002, the Court’s
decision and/or subsequent litigation could affect future Sound Transit
funding for the project. A State Supreme Court ruling that the Initiative is
unconstitutional would not impact Sound Transit’s motor vehicle excise tax
revenue. However, a ruling that the Initiative is constitutional could affect
the project’s future funding. The possible scenarios are:

   o Sound Transit would continue to both collect the motor vehicle
     excise tax at the current rate through 2028, as well as pledge those
     amounts in support of future bond issuances. Under this scenario,
     the project would be unaffected. Sound Transit would use the
     annual motor vehicle excise tax receipts to repay the debt service on
     the existing 1999 bond issuance, which includes debt service on the
     $7 million attributed to the Initial Segment as well as to support the
     issuance of $1.152 billion in future bonds. In addition, Sound
     Transit would also be able to collect the $114.71 million it had
     identified as a direct revenue source for the project from 2003 to
     2009. Subsequent to 2009, motor vehicle excise tax collections
     would be available to service the remaining debt.

   o Sound Transit would continue to collect the motor vehicle excise tax
     at the current rate through 2028. However, it would be prevented
     from using those amounts as a source of repayment in support of
     future bond issuances. Under this scenario, Sound Transit would
     continue to collect the $114.71 million it had identified as a direct
     revenue source for the project from 2003 to 2009. However, Sound
     Transit’s overall capacity to issue bonds will be decreased since
     future motor vehicle excise tax receipts will not be included as a
     source of repayment in securing the currently contemplated
     $1.152 billion in future bonds needed for the Initial Segment.
     Therefore, Sound Transit would have to back future bonds with sales
     and use taxes and car rental taxes only. Sound Transit did not
     analyze the effect of this scenario on the project. This scenario
     would result in an overall reduction of future unallocated bonding
     capacity. However, it would not likely require any material cuts in
     existing approved programs.
                                                                                                                      10


               o Sound Transit would not continue to collect the motor vehicle excise
                 tax at the current rate through 2028. Rather, it would collect only
                 enough motor vehicle excise taxes to pay the debt service on the
                 $350 million in bonds that were issued prior to Initiative 776.
                 Under this scenario, the amount of motor vehicle excise taxes that
                 Sound Transit collects would be reduced to a level that would allow
                 Sound Transit to service only the 1999 bond issuance. In response
                 to a request from FTA officials, Sound Transit prepared a baseline
                 financial plan for the Initial Segment in December 2002. This plan
                 included a stress test to illustrate Sound Transit’s financial capability
                 to complete work on the Initial Segment if restrictions were placed
                 on its ability to fully use the existing motor vehicle excise tax
                 revenue as suggested in this scenario.

                    The stress test assumed that this scenario would result in a total loss
                    to the system of about $704 million—$307 million9 in collections
                    and $397 million in bonding capacity—through 2009. According to
                    Sound Transit, this loss of financial capacity would result in cuts of
                    $151 million in approved programs and $553 million in unallocated
                    capacity that it plans to use for future projects. The subareas where
                    the Initial Segment is being constructed would lose $293 million,
                    which includes $114.7 million of direct revenue for the Initial
                    Segment. However, Sound Transit plans to protect the funding for
                    the Initial Segment by absorbing the losses through $264 million in
                    reductions to other future projects and $29 million in direct cuts to
                    existing approved programs.10 The stress test scenario, which
                    maintains the integrity of the Initial Segment, would require Sound
                    Transit Board approval for implementation.
     Regardless of the scenario, Sound Transit officials have indicated that they will
     protect local funding for the light rail project by cutting other program areas
     and the unallocated capacity. Should this become necessary, Sound Transit
     would need to revise its finance plan.

• Cost Growth and Future Funding Plans. At the same time that Sound
  Transit is facing a potential reduction in motor vehicle excise tax revenues,
  Sounder Commuter Rail and Regional Express Bus have collectively
  experienced sizeable cost growth in capital and operating expenses above the

9
 Includes the $114.71 million of uncollected motor vehicle excise taxes Sound Transit plans to use to fund the Initial
  Segment from 2003 to 2009, less a minimum adjustment to service the $7 million in existing bonds allocated to the
  project.
10
   Sound Transit has divided its geographical area into five subareas to ensure that it uses local tax revenues and related
  debt for projects and services, which benefit the subareas generally in proportion to the level of revenues each subarea
  generates. These subareas are: North, South, and East King County; Snohomish County; and Pierce County.
                                                                                11


   amounts estimated in 1998 to complete the projects by 2006. For example,
   since 1998 Sounder’s approved budget has increased $349 million (45 percent)
   and Regional Express Bus’ approved budget has increased $84 million
   (7 percent). We are not suggesting that cost growth of this magnitude will
   persist in the future, but Sound Transit should continue to monitor the cost of
   these projects.
Safety Issues
We also reviewed Sound Transit’s plans for addressing safety in the Seattle
Downtown Transit Tunnel. Sound Transit plans a number of safety improvements
that will adequately mitigate hazards from potential fires and vehicle collisions
related to joint bus and rail operations in the tunnel. Further, King County Metro
Transit’s (Metro) decision to operate hybrid buses (diesel fueled and battery
powered) in the tunnel will make it easier for Sound Transit to implement required
fire suppression and ventilation measures. Specifically, we found Sound Transit’s
plan to be adequate because the project will:

    • incorporate traffic control mechanisms in the joint operations plan to
      maintain safe distances between trains and buses;

    • replace two emergency ventilation fans and retrofit 10 emergency fans;

    • add a stairwell/escalator at one of the stations for emergency evacuation;
      and

    • install a water spray nozzle system for fire containment that will be tested
      and certified by the Seattle Fire Department.

FTA’s Stand-Alone Requirements

The Initial Segment, which starts at the Downtown Seattle Transit Tunnel and
ends 1.6 miles short of Sea-Tac International Airport, meets FTA’s requirement
for a stand-alone project. To qualify as a stand-alone project under the New Starts
process, a project must meet four criteria relating to the project end points,
independent utility, potential for further transportation improvements, and
commitment needs for other Federal funds. These criteria and their applications to
the Initial Segment are summarized below.

   • Have logical end points. The Initial Segment meets this criteria even
     though the alignment stops 1.6 miles short of Sea-Tac International Airport.
     A terminus at the airport would have enhanced the Federal funding
     justification because it would benefit airport workers and travelers. Sound
     Transit is not extending the Initial Segment to the airport at this time, but
                                                                                                                    12


            recently announced an agreement to complete the extension to Sea-Tac
            International Airport by 2011—2 years after the Initial Segment is
            completed. The Port of Seattle, which manages the airport, is in the process
            of planning the additions of a runway and a new terminal to the airport, and
            decisions about the light rail alignment on airport property cannot be
            decided until those plans are complete. Details of the extension, such as the
            cost estimate, funding sources, and the alignment, also have not been
            settled.

       • Have substantial independent utility and constitute a reasonable
         expenditure even if no additional transportation improvements are made in
         the area. The Initial Segment received a highly recommended rating under
         FTA’s New Starts evaluation process primarily because of the high marks it
         received for two factors (project justification and local financial
         commitment criteria).      These factors take into account a project’s
         independent utility and reasonableness of expenditures.

            Sound Transit forecasts that the Initial Segment will have 42,500 daily
            riders by the year 2020, including 16,000 (38 percent) new riders to the
            system. The ridership is higher than three other transit systems pending
            Federal funding commitments in Fiscal Year 2004.11 The Initial Segment
            will also eliminate about 14,500 daily automobile trips from the congested
            Seattle roadways.
            FTA’s evaluation of this project also revealed that existing land use, current
            population levels, employment, and other trip generators in the station areas
            are sufficient to support a major transit investment. The Initial Segment
            will connect several of the region’s economic centers, including the airport,
            downtown employment complexes, and two professional sports stadiums,
            and will serve neighborhoods where many residents are dependent on
            public transportation for basic mobility. Based on 1990 Census data, there
            are an estimated 2,616 low-income households and 169,300 jobs within a
            ½-mile radius of the proposed stations.

       • Keep open opportunities for other reasonably foreseeable transportation
         improvements. The Initial Segment’s end points, Westlake Center Station
         at the north end and South 154th Street at the south end do not terminate in
         areas that would limit transportation improvements in the near future. Our

11
     There are three transit systems pending Federal funding commitments in Fiscal Year 2004—Los Angeles/Eastside
     Light Rail, estimated to cost $888.3 million and seeking a 55-percent Federal contribution, projects 15,000 daily
     boardings, of which 7,600 will be new riders; New Orleans/Canal Streetcar Line, estimated to cost of $161.3 million
     and seeking an 80-percent Federal contribution, projects 31,400 daily boardings, of which 5,300 will be new riders;
     and San Diego/Oceanside-Escondido Rail corridor, estimated cost of $332.3 million and seeking a 46-percent
     Federal contribution, expects 15,100 daily boardings, of which 8,600 will be new riders.
                                                                                   13


       review shows that the Initial Segment is part of a broad range of local and
       regional transportation services that include buses, vanpools, carpools,
       commuter rail, ferries, bus rapid transit, and monorail. For example,
       commuter buses will be able to feed passengers into the Initial Segment at
       the South 154th Street station in Tukwila. Transfer opportunities to the
       Sounder Commuter Rail may be provided at the future Boeing Access Road
       station. In addition, Sound Transit is developing plans to extend the Initial
       Segment from its current end points to the airport in the south end and to
       Northgate in the north end.

   • Not commit Federal funds for closely related projects such as future
     extensions. By signing an FFGA for the Initial Segment, FTA is
     committing funds only for the Initial Segment. Future projects or
     extensions seeking Federal funds will be subject to the New Starts
     evaluation and rating process.

RECOMMENDATION

The constitutionality of Initiative 776 is currently on appeal to the Washington
State Supreme Court. Until such time as the Supreme Court resolves the issue,
there will be uncertainty over an important revenue source for Sound Transit;
albeit the portion of those revenues that would go to the Initial Segment is dwarfed
by the importance of those revenues to other components of Sound Transit and
future capital projects. If Initiative 776 is ruled unconstitutional, Sound Transit’s
use of motor vehicle excise taxes would not be threatened. However, litigation
that may arise if the Washington State Supreme Court rules that Initiative 776 is
constitutional, may raise new issues on Sound Transit’s use of this local tax
revenue for the Initial Segment and other capital projects. These uncertainties,
combined with more than $400 million in cost growth for Sounder Commuter Rail
and Regional Express Bus, will present the Sound Transit Board with a challenge
to maintain the existing system as it is and undertake future capital projects.

We considered what the prudent course of action would be to protect the
taxpayer’s interests under these circumstances, especially given the current state of
the litigation, Sound Transit’s pending application for $500 million in Federal
funding for the light rail project, and the fact that the motor vehicle excise taxes
are identified as one local funding source for the light rail project in the submitted
Finance Plan. In our view, it is also relevant that the Washington State
Department of Licensing, which has been collecting the taxes as an agent for
Sound Transit, has indicated to Sound Transit that it will continue to do so until a
court of competent jurisdiction directs otherwise. This intent is reflected in Sound
Transit’s financial plan.
                                                                                  14


We therefore, recommend that FTA require the Sound Transit Board of Directors
to formally agree, in advance of final approval of the FFGA, that: (1) alternative
local revenues will be committed promptly to the light rail project if and to the
extent that a funding deficit or shortfall is occasioned by the loss of excise tax
revenues and related fees, and (2) Sound Transit’s Finance Plan will be amended
promptly to reflect this commitment and identify alternative revenue source(s) in
the event it is determined that motor vehicle excise taxes and related fees are no
longer collectible. The intent of these recommendations are consistent with the
requirements of Section 10, Local Financial Commitment—Capital Costs, of the
FFGA.
It should also be recognized that under the terms of the FFGA, Sound Transit must
maintain its entire mass transit system at the current level of service, components
of which have experienced substantial recent cost increases. It goes without
saying that it will be incumbent on the Sound Transit Board of Directors to
arrange its finances and revenues in a manner that ensures the existing transit
system is maintained and operated at current levels of service. We recommend
that FTA monitor this closely.
Regarding future capital projects, including plans for other segments of or an
expansion of light rail in Seattle, they are not a part of the current FFGA
application. It is essentially a local decision regarding which of these projects
should be pursued, when they should be undertaken, and how they will be funded.
The fiscal impact of Initiative 776 is most pronounced with respect to these future
capital projects.

FTA AND OFFICE OF INSPECTOR GENERAL COMMENTS

In its July 3, 2003 response to the draft report (see Appendix I), FTA concurred
with the recommendation, stating that it will request in writing that the Sound
Transit Board of Directors formally agree to actions specified in our
recommendation. FTA also stated that it will not execute the FFGA prior to
written notification from the Board of their agreement, and that it will closely
monitor Sound Transit’s continuing financial responsibility to operate, maintain
and reinvest in its existing transit system as well as the Initial Segment, as is its
practice under all FFGAs. FTA’s comments and proposed actions are responsive
to our recommendation.
                                                                                15


BACKGROUND
The Puget Sound Regional Council and other organizations have studied many
alternatives since the early 1980s for expanding high capacity transit technologies
in the Central Puget Sound region, such as improvements to the regional high-
occupancy-vehicle (HOV) system, use of exclusive busways and transitways, and
an extensive regional (light or heavy) rail system. These studies also considered,
but ruled out, a monorail system due to its inflexibility in switching tracks,
incompatibility with the Downtown Seattle Transit Tunnel and the Interstate 90
Bridge, and personnel safety and emergency evacuation standards.
Sound Transit, established in July 1993 within King, Pierce and Snohomish
Counties, adopted a Phase I regional transit system plan that included a regional
bus system, a grade-separated commuter rail system and a surface light rail
system. Voters rejected the initial plan proposed in March 1995 but approved a
modified plan, known as Sound Move, in November 1996. The plan included
$1.8 billion for a 23.5-mile Central Link Light Rail System. This plan divided
Central Link into three segments—University Link (Segment 1), Airport Link
(Segment 2), and Northgate (Segment 3). Sound Transit is responsible for putting
Sound Move in place.
FTA and Sound Transit completed a Final Environmental Impact Statement
(FEIS) in November 1999 that included the Sound Move Central Link Light Rail
Project. This FEIS compared a no-build alternative (comprising the existing
transportation system with transit system expansions, Sound Transit’s Sounder
Commuter Rail and Regional Express Bus services, HOV lane construction, and
other planned local transportation improvements) to several light rail alternative
alignments. The Sound Transit Board chose a locally preferred alternative
alignment and FTA issued a Record of Decision in January 2000 approving this
alignment for the Central Link Light Rail Project.
Sound Transit and FTA forwarded an FFGA application for the University Link
segment to Congress in July 2000, and the former Secretary of Transportation
approved the application in January 2001. Subsequently, the OIG issued a report
in April 2001 questioning FTA’s decision to approve the FFGA for the University
Link segment. After the current Secretary of Transportation decided to hold
Federal funds for this segment in abeyance, Sound Transit selected the Initial
Segment to replace the University Link segment. Sound Transit formally
submitted a revised FFGA to FTA for the Initial Segment in January 2003.
                                                                                                                   16


FINDINGS
Project Cost and Schedule Estimates Are Credible, Given the
Stage of the Project
Since our April 2001 interim report, FTA has provided strong oversight of Sound
Transit’s plans for constructing a new Initial Segment of the Central Link Light
Rail Project. We also found the $2.437 billion project cost estimate and the July
2009 completion date to be fair representations of the Initial Segment’s cost and
construction schedule, given the project is in the later stages of final design.
Specifically, the project’s cost estimate is based on all known and reasonably
estimated costs and includes $375.1 million (15 percent of the project’s budget) in
contingencies and reserves to address uncertainties.
At this time, the project’s estimated completion date seems reasonable and
includes about 6 months of float time to accommodate potential schedule delays.
Further, Sound Transit is using cost-loaded master schedules12 to mitigate delays
and track construction completion, and has identified or implemented several risk
mitigation measures to prevent costly schedule slippages. We have found a
cost-loaded master schedule to be a useful tool to mitigate delays and track
construction completion, and have recommended the use of them on other
projects, such as the Tren Urbano Rail Transit project in Puerto Rico and the
Springfield Interchange Project in Virginia. Neither project was using master
schedules to forecast project completion or to monitor adjustments to mitigate
construction delays.

Project Cost
Sound Transit’s $2.437 billion baseline cost estimate to construct the Initial
Segment includes all known and reasonably anticipated construction costs for
preliminary and final design, construction management, capital improvements,
light rail vehicles, third-party agreements, and direct labor costs.13 (See Table 1.)
The proposed budget also includes $375.1 million for contingencies, such as
$245.7 million for Federally eligible construction costs, $1.1 million for other
costs, and a project reserve of $128.3 million. Total contingencies represent
23 percent of the project’s direct construction costs, or 15 percent of the total
project budget. These amounts are within levels considered acceptable by the
American Underground Association for projects at this stage of development and

12
   A cost-loaded master schedule integrates all the critical activities associated with the project.
13
  Consistent with reporting requirements for other Federally funded transportation construction projects, the baseline
 cost estimate of $2.437 billion includes $201 million in debt interest incurred by the project’s 2009 completion date,
 but does not reflect at least $675 million in long term debt interest that Sound Transit estimates is allocable to the
 Initial Segment and payable between 2009 and 2025. After 2009, Sound Transit also will be required to fully service
 the outstanding debt.
                                                                                          17


are consistent with contingencies used on other construction projects, such as the
Woodrow Wilson Bridge in Washington, D.C.

                                   Table 1
        Project Baseline Cost Estimate in Year-of-Expenditure Dollars
                           (Dollars in Thousands)
                                                                          Cost Estimate
                              Baseline Cost                 Contingency       with
           Description          Estimate      Contingency   Percentage    Contingency
  Costs Eligible for
   Federal Participation
  Preliminary Engineering          $29,703           $197           1           $29,900
  Environmental Analysis            $5,000           $100           2            $5,100
  Final Design                    $117,225         $5,775           5          $123,000
  Construction Management          $69,986        $12,478          18           $82,464
  Construction/Capital            $999,924       $166,817          17        $1,166,741
  Improvements
  Light Rail Vehicles             $130,479         $7,828           6         $138,307
  Third-Party Agreements           $50,450         $8,350          17          $58,800
  Right-of-Way                    $188,906        $44,110          23         $233,016
  Before/After Study                  $520            $60          12            $580
  Link Direct Labor for
  Preliminary Engineering            $2,000             0                        $2,000
   Subtotal                      $1,594,193      $245,715                    $1,839,908
  Other Costs
  Pole Procurement                   $428             $43          10            $471
  Site Preparation                  $4,337         $1,084          25           $5,421
  Subtotal                          $4,765         $1,127                       $5,892
  Administration &                $224,200              0                     $224,200
  Operations
  Project Reserve                                $128,300                      $128,300
  Initial Segment Financing        $201,800             0                      $201,800
  Transit Art                       $10,700             0                       $10,700
  Debt Service                      $26,100             0                       $26,100
  Total Baseline Cost            $2,061,758      $375,142                    $2,436,900
  Estimate
   Source: Sound Transit

Since Sound Transit has not awarded any major construction contracts, the cost
estimate is based largely on final design estimates. We determined that these
estimates were reasonable given the supporting detail for each line item,
underlying assumptions, and the contingency amount established for each item.
The contingency provides for possible future events or conditions arising from
presently known or unknown causes that cannot be precisely quantified at this
time. We also verified calculations, reviewed supporting cost information, and
traced cost information from conversion summary sheets to line item summary
sheets and supporting detail.
                                                                                                                     18


Additionally, we tested the accuracy of the cost information reported by Sound
Transit’s new integrated financial management system by submitting actual cost
information and reconciling the system output to financial reports. Because Sound
Transit has not awarded a major contract for the Initial Segment, we tested its
financial management system by observing data entry, approvals, and
transmissions of a program payment for the Tacoma Link through Sound Transit’s
accounting system. We observed the entering of the progress payment into the
project control system, receiving of appropriate approvals, transmitting of the
payment to Sound Transit’s accounting system, and sending out of the progress
payment. Our test of the system showed no discrepancies between the payments
entering the system and the payments leaving the system. We then verified
expenditures as of December 31, 2002, using the new system.
Our conclusions were consistent with those of FTA’s two PMOCs, who verified
quantities of supplies and equipment, and the labor costs associated with each
contract line item. Gannett Fleming Incorporated, the primary PMOC, concluded
in its January 2003 Technical Capacity and Capability Report that Sound Transit
adequately defined the scope, cost estimate and schedule for the 13.9-mile Initial
Segment.
The second PMOC, Parsons Transportation Group, performed two analyses that
emphasized different cost assessment methods. In the first analysis, Parsons
compared construction budget line items for the more complex activities to
industry standards. Using this approach, Parsons determined that construction line
item costs were reasonable, given the project’s current design level.
Parsons also employed a risk assessment used by WSDOT, which estimates cost
ranges based on risk factors. This risk assessment identified a construction cost
range for the project of $1.743 billion to $1.866 billion, with the most likely cost
being $1.803 billion. This figure is slightly lower than Sound Transit’s
construction budget of $1.840 billion. After using both methods, Parsons
concluded that Sound Transit’s project cost estimate was within a reasonable
range of where the final cost should be.

Schedule
Based on our review of the project’s February 28, 2003 Primavera baseline
schedule14 loaded with February 28, 2003 data, Sound Transit’s Progress Reports,
and PMOC monthly reports, we concluded that the planned revenue operation date
of July 3, 2009 should be achievable. Specifically, the critical path incorporates 6
months of float time distributed throughout construction and systems installation
activities. The organization, duration, and phasing of the activities are logical and
14
     Primavera is a computer program commonly used by engineers to analyze a project’s schedule of activities. The
     baseline is the schedule against which future updates will be compared.
                                                                                                                  19


appropriately detailed for a project that is in the later stages of final design.
Further, because project design is 80-percent complete, most of the schedule risks
have been identified and the contingencies are sufficient to account for possible
future events or conditions arising from presently known or unknown causes that
cannot be precisely quantified. Table 2 shows the percentage of design that was
completed for each construction segment as of June 12, 2003.

                                                Table 2
                             Design Levels of Construction Sections as of
                                             June 12, 2003
                            Construction Segment           Design Level
                            Downtown Seattle Transit
                            Tunnel Retrofit                     90%
                            Pine Street Stub Tunnel          30%-40%
                            E-3 Busway                         100%
                            Beacon Hill Tunnel                  90%
                            McClellan                           95%
                            Martin Luther King Jr. Way          95%
                            Tukwila Freeway Route               50%
                            Maintenance Base                   100%
                            Overall Design Level           Approx. 80%

Issues That Could Impact the Project’s Final Cost and Completion
Date
Our experience has shown that cost escalation and delays are a risk for projects
that face difficult and complex design and construction issues, such as those
inherent in the Initial Segment. For example, our audits of the Hiawatha Light
Rail System, Springfield Interchange, Bay Area Rapid Transit Airport Extension,
and Los Angeles Metro Red Line showed that these projects encountered cost and
schedule issues resulting from tunneling, utility relocation, construction
difficulties, or right-of-way purchases.15
One of the most challenging aspects of the Initial Segment is building the segment
through a developed urban corridor, where the alignment traverses businesses,
residential neighborhoods, schools, shopping centers, operating railroads, a river,
and a tunnel with bus traffic. Not only will environmental and safety mitigation
measures be necessary, but Sound Transit will have to negotiate and manage third-
party agreements with cities, counties, regulatory agencies, utilities, and railroads.

15
     These audits resulted in the following reports: Springfield Interchange Project, OIG Report No. IN-2003-003,
     November 22, 2002; Review of the Hiawatha Corridor Light Rail Transit Project, OIG Report No. IN-2002-078,
     February 12, 2002; Audit of Bay Area Rapid Transit District Extension to San Francisco International Airport, OIG
     Report No. TR-2000-085, April 21, 2000; and Mega Project Review of Los Angeles Metro Rail Red Line Project,
     OIG Report No. TR-1998-154, June 12, 1998.
                                                                                              20


Addressing safety and environmental mitigation and negotiating local agreements
can cause delays and drive up costs during project implementation. For this
reason, we have highlighted the following areas that should be monitored by FTA
and Sound Transit.
Timing and cost of right-of-way acquisitions. Sound Transit must complete its
acquisition of 760 right-of-way parcels by December 2004. Because it had
acquired only 77 parcels (10 percent) as of May 31, 2003, Sound Transit must
purchase the remaining 683 parcels (90 percent) on schedule. To accomplish this,
Sound Transit has advanced its schedule to acquire property and has budgeted
$233 million (10 percent of its budget) for right-of-way purchases, including
$44 million for contingencies (about 12 percent of the overall contingency
budget). However, right-of-way parcels on the critical path, such as those in the
Tukwila Freeway section, must be purchased by October 2004. In purchasing
right-of-way for the Tukwila Freeway section, Sound Transit must acquire an
aerial easement from the Burlington Northern Santa Fe and Union Pacific
railroads, a permit and easement to build a bridge spanning approximately 200 feet
across the Duwamish River, and property for crossing Interstate 5. Sound Transit
is working with WSDOT, the railroads, and the City of Tukwila to purchase the
various easements and property needed. A delay in these acquisitions could defer
the Sound Transit Board’s authorization for constructing the Tukwila segment.
Designing/constructing the alignment along the Tukwila Freeway section. The
Tukwila Freeway section is estimated to cost $286.3 million, including a
10-percent contingency allocation, with construction starting in April 2004 and
ending in January 2008. As Figure 3 illustrates, the elevated north end of the
Tukwila Freeway section must cross over three physically challenging areas:
Interstate 5 (a 12-lane freeway), the railroad yards, and the Duwamish River.

           Figure 3
   Picture of the Physically
   Challenging Areas at the North                  Boeing
                                                   Access                  I-5
   End of the Tukwila Freeway                       Road

   Section

                                                                 BNSF/
                                                                  UP               D755
                                                                Railroad            Link
                                                                                 Light Rail

                          E. Marginal Way S.




                              Duwamish               Source: Sound Transit
                                River

               D755
                Link
             Light Rail
                                                                                   21




Completing final design and roadbed construction over these physically
challenging areas and addressing the level of safety and technical coordination
needed with WSDOT and the railroads could impact the project’s cost and
schedule. As we have seen on other projects such as the Springfield Interchange,
design problems and disagreements over the payment for and coordination of field
activities with railroad companies can cause delays and cost growth. For example,
on the Springfield Interchange the Virginia Department of Transportation had to
redesign five bridges over railroad tracks because it did not secure prior design
approval from the railroads for these bridges. The resulting extra construction
work increased costs beyond the contingency amount set aside for this
construction.

Sound Transit is pursuing several permits needed for the Tukwila Freeway section.
Sound Transit plans to apply for three major City permits by mid-summer 2003:
an unclassified use permit, which is the primary land use permit required by the
City that encompasses the full light rail alignment in Tukwila and the South 154th
Street station; a Shoreline Substantial Development Permit, which the City
requires for crossing the Duwamish River; and a Joint Aquatic Resources Permit.
The Joint Aquatic Resources Permit covers all water-related permits and combines
all environmental permit applications into one package.

Tunneling in Beacon Hill. Experience with other projects has shown that
tunneling involves risks that may lead to delays and cost increases. Tunneling
activities at Beacon Hill are not on the critical path, but uncertainties about ground
settlement and the excavation of contaminated materials could require
environmental mitigation measures.

The Beacon Hill Tunnel segment includes a deep underground binocular-shaped
station and twin tunnels that extend for approximately 1 mile. The underground
station will be approximately 160 to 165 feet below ground and will have a
high-speed elevator to the surface. Sound Transit staff conducted a risk analysis
for the construction of the Beacon Hill segment and rated it as high risk. Because
of the various risk factors associated with complex geotechnical data obtained
during borings, and the potential for hazardous and/or contaminated conditions,
Sound Transit’s Peer Review and Oversight Panel conducted a design review and
recommended construction of an exploratory test shaft. This shaft will enable
Sound Transit and prospective bidders to better assess underground soil and
groundwater conditions before contract bids are requested and mitigate various
risk factors that could drive up the cost of the bids.
                                                                                  22


Sound Transit awarded a contract for the exploratory test shaft and issued a Notice
to Proceed to the contractor in February 2003. The construction of the test shaft is
estimated to be completed in 150 days from start of construction. As of
June 13, 2003, the contractors had excavated 92 feet (approximately 57 percent of
the shaft) and found no serious problems. Sound Transit staff indicated that some
difficulties have occurred with the removal of ground water, but that this has not
posed any serious problems.

Sound Transit estimates that the Beacon Hill tunnel and station will cost
$219.6 million, including a 20—percent contingency allocation. Construction of
the tunnel is planned to occur from for March 2004 through February 2008.

Coordinating utility relocations. Although one PMOC classified utility relocation
as a moderate risk, disagreements over who will pay to relocate private utilities
and the timely relocation of utilities along the critical path (the Tukwila Freeway
section) could potentially affect the project’s cost and schedule. As we have
observed on other audits, that disputes over who will pay to relocate private
utilities could affect project costs.

Sound Transit has allocated $18.5 million for coordinating the relocation of
private and public utility lines and is working to secure all of the corresponding
agreements with public and private utilities. As of June 12, 2003, Sound Transit
was in negotiation, for two major agreements, with Seattle City Light, a municipal
electric utility involved in a number of contracts for the Initial Segment. The first
agreement is a master construction agreement and the second is an agreement to
install underground utilities along Martin Luther King Jr. Way South, in the
Rainier Valley. Although Sound Transit and Seattle City Light have reached an
agreement in principle, a formal agreement is scheduled to go to the Sound Transit
Board for approval in July 2003.

Seattle City Light will also need to provide adequate resources to relocate
electrical utilities within Sound Transit’s scheduled milestones. To help mitigate
potential problems, Sound Transit has developed a master schedule illustrating the
critical interfaces needed between Seattle City Light crews and Sound Transit civil
contractors. Sound Transit and Seattle City Light are holding coordination
meetings to address technical issues and refine the master schedule as necessary.

Funding

Our analysis of Sound Transit’s December 2002 Financial Plan indicates that at
this time the agency has sufficient funds to construct and operate approved
                                                                                                                  23


Phase I16 capital projects for its three lines of business—Regional Express Bus,
Sounder Commuter Rail, and Link Light Rail, including the estimated
$2.437 billion Initial Segment. FTA’s FMOC, Diversified Capital, Inc., also
concluded that Sound Transit has the financial capacity to complete all capital
projects included in Sound Move’s Phase I Plan.

Nevertheless, Sound Transit’s funding for the Initial Segment could face two risks:
a recently passed local Initiative could limit motor vehicle excise tax collections,
and possible cost growth on Sound Transit’s other programs—Sounder Commuter
Rail and Regional Express Bus systems. In November 2002, voters passed
Initiative 776 that would eliminate, among other things, motor vehicle fees and
taxes above a flat $30 fee, including Sound Transit’s 0.3 percent motor vehicle
excise tax. This Initiative could also prevent Sound Transit from pledging motor
vehicle excise tax revenues for future bond issuances that would be used for future
transportation improvements, such as Sound Transit’s Link Light Rail, Regional
Express Bus and Sounder Commuter Rail in King, Pierce, and Snohomish
counties.

Funding Sources

In addition to the $500 million in Federal funding that Sound Transit has
requested, the Initial Segment will be financed by $1.937 billion in local funds
comprised of $1.159 billion in long-term bonds and $778 million in local tax
revenues, as shown in Table 3.




16
     Sound Transit originally proposed to complete transportation improvements in two phases. It planned to complete
     Phase I Regional Express Bus, Sounder Commuter Rail, and Link Light Rail capital projects in 2006. However,
     when Sound Transit encountered increased costs and schedule delays on the Central Link system, it extended the
     Phase I Central Link completion date to 2009. Sound Transit plans to seek voter approval for Phase II projects in
     2006 or later.
                                                                                  24


                                     Table 3
                  Seattle Central Link Project Funding Sources
                               (Dollars in Millions)
                 Revenue From Long-Term
                 Bonds (Backed by Sales & Use
                 Taxes, Motor Vehicle, Excise
                 Taxes, and Car Rental Tax
                 Collections)                               $1,159.00
                 Local Taxes
                   Sales & Use Tax, Car Rental
                   Tax and Other Funds                         590.53
                   Motor Vehicle Excise Tax                    187.47
                 Subtotal                                      778.00
                 Federal (New Starts Grant)                    500.00
                   Total                                    $2,437.00
              Source: Sound Transit, as of June 2003.

Local Tax Revenue. On November 5, 1996, voters within the three-county Sound
Transit district approved an increase in taxes (a 0.4 percent increase in local sales
and use tax and a 0.3 percent increase in the local motor vehicle excise tax) to
fund the local share of Sound Move. Subsequently, the Sound Transit Board of
Directors also authorized a 0.8 percent car rental tax. Sound Transit collects these
taxes annually for its Phase I capital projects and operations. These tax collections
have no sunset provision, but that may change when Phase I ends. Sound Transit
cannot enter Phase II unless voters approve a second phase. If voters do not
approve Phase II, the Sound Transit Board of Directors would roll back the tax
rates to a level sufficient to pay off the outstanding bonds and to operate and
maintain the facilities and services implemented during Phase I.

As shown in Table 3, Sound Transit will use annual tax receipts totaling
$778 million to pay for the Initial Segment through 2009. It has used these funds
to date to pay for planning, design, and other expenditures. When construction
begins, it will use annual tax receipts and excess tax receipts collected in previous
years that the agency has transferred into its General Fund. Because Sound
Transit will have expended the excess revenues now that are in the General Fund
by the end of 2003, the agency plans to issue bonds to pay for light rail and other
capital expenditures from 2004 through the end of construction in 2009. During
these later years, Sound Transit will be using its annual tax receipts to pay for
construction expenditures and for the debt service on these bonds. Appendix II
shows the annual transfers of local tax funds from operations and fund balances
and the use of bond funds.
                                                                                                                  25


Sound Transit’s local tax collections from all sources (sales and use tax, car rental
tax, and local motor vehicle excise tax), for calendar year (CY) 1997 through
CY 2002 have exceeded projections. During this period, the agency estimated it
would receive $1.355 billion, but it collected $1.432 billion ($77 million more
than expected). Table 4 compares Sound Transit’s actual tax revenue collections
to its budget projections from CY 1997 through CY 2002.

                                           Table 4
                       Tax Revenue Collection History by Calendar Year
                                    (Dollars in Millions)
 Category           1997*          1998          1999           2000          2001           2002        1997-2002
Actual              $158.92        $226.96       $242.16        $271.12       $268.06        $265.04      $1432.26
Collections
Budget               $157.40       $213.02       $226.54        $242.56       $262.13        $253.51       $1355.16
Projections
Variance               $1.52        $13.93        $15.62         $28.56          $5.93        $11.53          $77.09
 Percent                 0.97            6.54        6.89         11.78           2.26          4.55            5.69
Source: Sound Transit
* Revenue collection started in April.

Bonds.      To complete the Initial Segment, Sound Transit plans to use
approximately $1.159 billion in funds obtained through bonds. This amount is
part of bonds totaling $2.5 billion that Sound Transit expects to issue through 2009
for its capital projects. The agency can issue up to $3.382 billion in bonds without
further voter approval for its capital projects,17 and as noted previously, it uses
local tax revenues to pay debt service on the bonds it issues. Sound Transit issued
$350 million in bonds in 1999, leaving $3.032 billion in future funding available
for Sound Transit projects.

Grants. The Transportation Equity Act for the 21st Century authorizes the use of
Federal funds through FTA’s Section 5309 New Starts program for capital
development projects. Sound Transit expects to receive a $500 million FFGA
under this program. If FTA approves this grant agreement, funds will be available
for the Initial Segment, but disbursement is subject to annual appropriations.
Sound Transit formally submitted its FFGA application to FTA in January 2003.
To date, Sound Transit has been awarded $91 million of the grant request for
preliminary engineering and final design work.

Initiative 776

In November 2002, voters of the State of Washington passed Initiative 776 to
eliminate, among other things, motor vehicle fees and taxes above a flat $30 fee.

17
     The Sound Move plan allows Sound Transit to borrow up to 1.5 percent of the assessed valuation of property within
     its geographical boundaries. In 2003 this amounted to $3.382 billion in bonding capacity.
                                                                                                                   26


The Initiative would eliminate Sound Transit’s motor vehicle excise tax as a
funding source or prevent Sound Transit from pledging these revenues for future
bond issuances that would be used for transportation improvements, such as Sound
Transit’s Link Light Rail, Regional Express Bus and Sounder Commuter Rail in
King, Pierce, and Snohomish counties. As a result, Sound Transit’s plans to
partially finance the Initial Segment with $187.47 million in motor vehicle excise
tax revenue are uncertain at this time. As of December 2002, approximately
$72.76 million of this amount had been collected. Sound Transit plans to spend
another $114.71 million of these taxes on the project from 2003 through 2009.

In February 2003, a Washington Superior Court held that Initiative 776 was
unconstitutional, ruling that, among other things, that the Initiative introduces a
second subject and because the subjects of the Initiative were not identified in the
ballot title.18 The State Attorney General’s office is defending the Initiative
against a constitutional challenge brought by Sound Transit and others, and the
Superior Court ruling is on appeal before the State Supreme Court. Although not
directly at issue in the case, at oral arguments before the State Supreme Court on
June 26, 2003, questions related to Sound Transit’s bonding and funding were
raised by the Court.19 Sound Transit represented to the Court that the loss of
future motor vehicle excise tax revenue would not leave it short of funds needed to
complete the Initial Segment, but that it could affect other components of its
system. However, during oral argument, Sound Transit stated that its legal theory
is that the Initiative cannot impair the financial framework that induced the
bondholders to purchase bonds issued before the Initiative passed,20 and, therefore,
even if the Court found the Initiative to be constitutional, it would not affect
Sound Transit’s revenues until 2028.

If the Initiative were held constitutional by the State Supreme Court, the issues
directly related to Sound Transit’s bonding and funding could be the subject of
future litigation. However, it is not our place to sort through all of the legal
arguments; they are properly before the Supreme Court of Washington and its
lower courts. Until such time as the courts resolve these issues, there will be
uncertainty over an important revenue source for Sound Transit.

While Initiative 776 does not affect the motor vehicle excise tax revenues that
Sound Transit had collected through December 2002, the court’s decision and/or

18
     Pierce County v. State of Washington, No. 02-2-35125-5 SEA, Memorandum and Order, pp. 31-32 (February 11,
     2003).
19
     Oral Argument of Central Puget Sound Regional Transit Authority before the Supreme Court of the State of
     Washington, No. 73607-3, June 26, 2003.
20
     Sound Transit’s 1999 bond issuance requires it to levy the motor vehicle excise tax at a rate of no less than 0.3
     percent so long as any bonds remain outstanding, or through the year 2028. See section 8, page 21. Wash. Const.
     Art. 1, Sec. 23; Tyrpak v. Daniels, 124 Wn.2d 146, 153-54 (1994); Municipality of Metropolitan Seattle v. O’Brien,
     86 Wn.2d 339, 350-52 (1976).
                                                                                  27


subsequent litigation could affect future Sound Transit funding for the project. A
State Supreme Court ruling that the Initiative is unconstitutional would not affect
Sound Transit’s motor vehicle excise tax revenue. However, a ruling that the
Initiative is constitutional could affect the project’s future funding. The following
are possible scenarios.

   • Sound Transit would continue to both collect the motor vehicle excise tax at
     the current rate through 2028, as well as pledge those amounts in support
     of future bond issuances. Under this scenario, the project would be
     unaffected. Sound Transit would use the annual motor vehicle excise tax
     receipts to repay the debt service on the existing 1999 bond issuance, which
     includes debt service on the $7 million attributed to the Initial Segment as
     well as to support the issuance of $1.152 billion in future bonds. In
     addition, Sound Transit would be able to collect the $114.71 million it had
     identified as a direct revenue source for the project from 2003 to 2009.
     Subsequent to 2009, motor vehicle excise tax collections would be
     available to service the remaining debt.

   • Sound Transit would continue to collect the motor vehicle excise tax at the
     current rate through 2028. However, it would be prevented from using
     those amounts as a source of repayment in support of future bond
     issuances. Under this scenario, Sound Transit would continue to collect the
     $114.71 million it had identified as a direct revenue source for the project
     from 2003 to 2009. However, Sound Transit’s overall capacity to issue
     bonds will be decreased because future motor vehicle excise tax receipts
     will not be included as a source of repayment in securing the currently
     contemplated $1.152 billion in future bonds needed for the Initial Segment.
     Therefore, Sound Transit would have to back future bonds with sales and
     use taxes and car rental taxes only. Sound Transit did not analyze the effect
     of this scenario on the project. This scenario would result in an overall
     reduction of future unallocated bonding capacity. However, it would not
     likely require any material cuts in existing approved programs.

   • Sound Transit would not continue to collect the motor vehicle excise tax at
     the current rate through 2028. Rather, it would collect only enough motor
     vehicle excise taxes to pay the debt service on the $350 million in bonds
     that were issued prior to Initiative 776. Under this scenario, the amount of
     motor vehicle excise taxes that Sound Transit collects would be reduced to
     a level that would allow Sound Transit to service only the 1999 bond
     issuance. In response to a request from FTA officials, Sound Transit
     prepared a baseline financial plan for the Initial Segment in
     December 2002. This plan included a stress test to illustrate Sound
     Transit’s financial capability to complete work on the Initial Segment if
                                                                                                                      28


          restrictions were placed on its ability to fully use the existing motor vehicle
          excise tax revenue as suggested in this scenario.

          The stress test assumed that this scenario would result in a total loss to the
          system of about $704 million—$307 million21 in collections and
          $397 million in bonding capacity—through 2009. According to Sound
          Transit, this loss of financial capacity would result in cuts of $151 million
          in approved programs and $553 million in unallocated capacity that it plans
          to use for future projects. The subareas where the Initial Segment is being
          constructed would lose $293 million, which includes $114.7 million of
          direct revenue for the Initial Segment.22 However, Sound Transit plans to
          protect the funding for the Initial Segment by absorbing the losses through
          $264 million in reductions to other future projects and $29 million in direct
          cuts to existing approved programs.23 The stress test scenario, which
          maintains the integrity of the Initial Segment, would require Sound Transit
          Board approval for implementation.
Regardless of the scenario, Sound Transit officials have indicated that they will
protect local funding for the light rail project by cutting other program areas and
the unallocated capacity. Should this become necessary, Sound Transit would
need to revise its finance plan.

Sounder Commuter Rail and Regional Express Bus Cost Growth
At the same time that Sound Transit is facing a potential reduction in motor
vehicle excise tax revenues, its Sounder Commuter Rail and Regional Express Bus
capital projects and operations are experiencing cost growth above the amounts
estimated in 1998 to complete the projects by 2006. The total budget for Sounder
has increased $349 million (45 percent) from the $776 million cost estimate in the
1998 Sound Move budget to the $1.124 billion cost estimate in the Adopted 2003
Budget. The total budget for Regional Express Bus increased $84 million
(7 percent) from the $1.282 billion cost estimate in the 1998 Sound Move budget
to the $1.366 billion cost estimate in the Adopted 2003 Budget. (See Table 5.)
We are not suggesting that cost growth of this magnitude will persist in the future,
but Sound Transit should continue to monitor the cost of these projects.




21
   Includes the $114.71 million of uncollected motor vehicle excise taxes Sound Transit plans to use to fund the Initial
  Segment from 2003 to 2009.
22
    Less a minimum adjustment to service the $7 million in existing bonds allocated to the project.
23
   Sound Transit has divided its geographical area into five subareas to ensure that it uses local tax revenues and related
  debt for projects and services, which benefit the subareas generally in proportion to the level of revenues each subarea
  generates. These subareas are: North, South, and East King County; Snohomish County; and Pierce County.
                                                                                  29


                                    Table 5
               Sounder Commuter Rail and Regional Express Bus
                     Changes in Capital and Operating Costs
                              (Dollars in Millions)
                         Estimated Cost*            Cost    Percent
                         1998         2003       Increase   Change
            Sounder
           Commuter
              Rail      $ 776        $1,124        $ 349     45%
            Regional
           Express Bus $1,282        $1,366        $ 84       7%
          * The costs are in year of expenditure dollars. Both projects are
            expected to be completed in 2006.
          Source: Sound Transit

Sounder Commuter Rail and Regional Express Bus have reserve funds totaling
$5 million and $52.4 million, respectively, to cover cost growth through FY 2006.
Additionally, these projects have budgets with built-in contingency funds.
Nevertheless, if these reserve and contingency funds prove insufficient during the
next 3 years, Sound Transit would have to look at other funding options and, for
example, could decide to cut back plans for certain capital improvements, such as
train stations, to stay within the maximum financial capacity for the affected
subareas.

Plans to Address Safety Issues in Downtown Seattle Transit
Tunnel

In August 2002, Sound Transit completed a hazards analysis using FTA’s “Hazard
Analysis Guidelines for Transit Projects” to identify risks associated with joint bus
and light rail operations in the Downtown Seattle Transit Tunnel. Sound Transit’s
analysis evaluated the tunnel facilities, equipment, and operating plan to determine
the type, frequency, and severity of potential hazards. The analysis identified fires
and vehicle collisions as major hazards, but determined that the probability of
these events occurring was very low.

To address these hazards, Sound Transit developed plans to retrofit the transit
tunnel with specific safety improvements. These improvements include fire
suppression, collision avoidance, ventilation and evacuation features. Our review
found that Sound Transit’s plans, which were 60 percent complete at the time of
this review, reasonably addressed safety hazards and other risks associated with
tunnel operations.

Sound Transit plans to address fires in the tunnel by installing a water deluge
system. A Seattle Fire Department (SFD) fire protection consultant has approved
                                                                                                                  30


the concept of a water spray system employing nozzles as appropriate for the
vehicle fires in the tunnel, and determined it sufficient for fire exposure protection
for fire fighters and passenger exits. The SFD consultant is monitoring the design
of the system to ensure compliance with fire code requirements. Upon design
completion, the consultant will certify that final plans and specifications meet code
requirements and provide the necessary fire protection. The consultant also will
participate in acceptance tests of the installed fire protection system.

With respect to vehicle collisions, Sound Transit plans to incorporate traffic
control mechanisms in the joint operations plan to maintain safe separation
between trains and buses. These traffic controls include an integrated signal
system designed to allow only one mode (bus or rail) in a tunnel segment or
station at any given time. The provisions to prevent vehicle collisions seem
adequate for joint operations and are consistent with transit industry guidelines.
Nonetheless, the reliability of the collision prevention measures will ultimately
depend on thorough testing of the controls and signal system prior to revenue
operations.

To address emergency ventilation issues, Sound Transit originally planned to
replace the tunnel’s 12 emergency ventilation fans and 12 station exhaust fans.
These measures would comply with current SFD fire codes which did not exist
when King County Metro constructed the tunnel. Preliminary tests in April 2002
found that Sound Transit could meet tunnel ventilation requirements by replacing
2 emergency ventilation fans and retrofitting the other 10 emergency ventilation
fans.

King County Metro’s decision to operate hybrid buses24 in the tunnel eliminates
the need for overhead catenary wires, thereby reducing the risk of electrical fires.
In addition, eliminating overhead catenary wires could provide an estimated
$4 million in savings for Sound Transit. In addition, these buses will also generate
lower emissions, which also will reduce the need to replace all the emergency
ventilation fans. Currently, Metro operates dual-mode buses25 in the tunnel.

Sound Transit determined that existing plans for the emergency evacuation of
passengers during peak hours were sufficient, except for an additional
stairwell/escalator at one station. Sound Transit has included this additional
stairwell/escalator in the tunnel retrofit. We found during a visit to the tunnel that
the stations typically have ample entrances and exits for prompt passenger
evacuation.


24
     Hybrid buses use diesel fuel and battery power for normal operations and will use only battery power while in the
     tunnel.
25
     Dual mode buses normally operate with diesel fuel but change to electric power, and rely on an overhead catenary
     wire system within the tunnel.
                                                                                  31


FTA’s Stand-Alone Requirements Are Met
The Initial Segment, which starts at the Downtown Seattle Transit Tunnel and
ends 1.6 miles short of the Sea-Tac Airport, meets FTA’s requirement for a stand-
alone project. To qualify as a stand-alone project under the New Starts process, a
project must meet four criteria relating to the project end points, independent
utility, potential for further transportation improvements, and commitment needs
for other Federal funds. These criteria and their applications to the Initial Segment
are summarized below.

   • Have logical end points, for example, by serving population or employment
     centers, or major traffic generators. The Initial Segment has logical end
     points with the Westlake Center Station in the Central Business District at
     the north end, and South 154th Street and International Boulevard at the
     south end. The south end terminates 1.6 miles north of Sea-Tac Airport,
     but will have a park-and-ride facility intended to attract riders throughout
     the south central metropolitan area. Sound Transit plans to have dedicated
     shuttle buses to meet the train and take passengers directly to the lower
     level of the airport parking garage.
       While, in our opinion, SeaTac Airport would have been a more logical end
       point at the south end, Sound Transit is not extending the Initial Segment to
       the Sea-Tac Airport at this time. The Port of Seattle, which manages the
       airport, is in the process of planning the additions of a runway and a new
       terminal to the airport, and decisions about the light rail alignment on
       airport property can not be decided until a later date. However, on January
       15, 2003, Sound Transit and the Port of Seattle announced an agreement to
       complete the extension to Sea-Tac Airport by 2011—2 years after the
       Initial Segment is completed. Details of the extension, such as the cost
       estimate, funding sources, and the alignment, have not been settled.
       Extending the Initial Segment to the airport would increase the system’s
       ridership and enhance the Federal funding justification because it would
       benefit airport workers and travelers that live outside the Seattle area.
       Cities with rail lines that extend from downtown areas to airports, such as
       St. Louis, Boston and Atlanta, have ridership levels ranging from 2,200 to
       6,000 boardings at the airport.

   • Have substantial independent utility and constitute a reasonable
     expenditure even if no additional transportation improvements are made in
     the area. For example, the project should have sufficient ridership for the
     cost, and access to equipment, power, facilities, etc., without which the
     project could not function. The Initial Segment received a highly
     recommended rating on its evaluation under FTA’s New Starts criteria,
                                                                         32


making it one of two projects receiving a highly recommended rating in the
Fiscal Year 2004 DOT Budget Proposal. To receive a highly recommended
rating, projects must receive a medium high rating on both project
justification and local financial commitment criteria. As shown in Table 6,
the Initial Segment received a medium-high rating for both project
justification and local financial commitment under the New Starts
evaluation process.



                                 Table 6
                    Criteria                        Rating
       Project Justification                   Medium-High
        Mobility                               Medium
        Cost Effectiveness                     Medium
        Land Use                               Medium-High

       Local Financial Commitment              Medium-High
        Stability and Reliability of Capital
        Finance Plan                           Medium-High
        Stability and Reliability of
        Operating Plan                         Medium-High

                                               Highly
       Overall Rating                          Recommended

Project Justification
The medium-high rating for project justification is based on the project’s
positive cost—effectiveness rating and strong land use policies. The cost—
effectiveness criterion measures travel time savings for all users of the
proposed project (both existing riders and new riders), and captures a broad
set of benefits to transit riders—including reduction in walk times, wait
times, and number of transfers. Sound Transit forecasts that the Initial
Segment will have 42,000 daily riders by the year 2020, including adding
16,000 (38 percent) new riders to the system. As shown in Table 7, the
Initial Segment’s ridership will be higher than three other transit systems
recommended for Federal funding commitments in Fiscal Year 2004. The
Initial Segment will also eliminate about 14,500 daily automobile trips
from the congested Seattle roadways.

The land use criterion considers existing land usages, growth management,
and transit supportive corridor policies; supportive zoning regulations; and
implementation tools and performance of land use polices. The medium-
high rating on this criterion means that for a project in this stage of
                                                                                   33


development, existing land use, the current levels of population,
employment, and other trip generators in the station areas are sufficient to
support a major transit investment. The Initial Segment will connect
several of the region’s economic centers, including the airport, downtown
employment complexes, and two professional sports stadiums, and will
serve neighborhoods where many residents are dependent on public
transportation for basic mobility. Based on 1990 Census data, there are an
estimated 2,616 low-income households and 169,300 jobs within a ½-mile
radius of the proposed stations.

                                 Table 7
        Comparison of Initial Segment Statistics to FTA New Starts
       Projects with Recommended, Proposed, and Existing Funding
                        Commitments for FY 2004
                               Project      Percent      Estimated
                                Cost        Federal        Daily       Estimated
              Project        (Millions)      Share       Boardings    New Riders
      Initial Segment         $2,437.0        21          42,000        16,000

      Projects Recommended for Funding Commitments
      Los Angeles/Eastside
      Light Rail              $ 888.3        55           15,000          7,600
      New Orleans/Canal
      Streetcar Line          $ 161.3        80           31,400          5,300
      San
      Diego/Oceanside-
      Escondido Rail
      corridor                $ 332.3        46           15,100          8,600
      Projects with Proposed Funding Commitments
      Las Vegas/Resort
      Corridor                $ 324.8        49           38,800         22,590
      New York/Eastside
      Access                  $5,300.0       49          167,500         15,400
      Projects with Existing FFGAs
      Dallas/DART             $ 517.2        64           17,000          6,800
      Denver/T-REX            $ 879.3        60           31,800         12,900
      Portland/MAX            $ 350.0        74           18,100          8,400
      Salt Lake City/UTA      $ 89.4         60            4,100          3,400
      Atlanta/MARTA           $ 463.2        80           33,300         11,000
      Source: FTA’s Annual report on New Starts Proposed Allocation of Funds for
               FY 2004
                                                                                34


      Local Financial Commitment

      The Initial Segment’s medium-high rating for local financial commitment
      is based on the low Federal share of the project’s cost, the high current
      bond rating, and the good financial condition of Sound Transit. The
      $500 million Federal share for this project represents only 20.5 percent of
      total funding required. The 1999 series bonds were assigned municipal
      bond ratings of Aaa and AAA, respectively, by two ratings services,
      Moody’s Investors Service and Standard & Poor’s Ratings Services. Sound
      Transit’s Financial Plan includes projected costs to operate and maintain
      each of its three lines of business. It also shows adequate operating
      revenues to cover these costs and provisions for required operational and
      maintenance and capital replacement reserves. Finally, the Initial Segment
      includes a maintenance facility, a vehicle storage area, and a control system
      that will enable the system to function independently.

   • Keep open opportunities for other reasonably foreseeable transportation
     improvements. For example, the project cannot end at a park that would
     force a future extension through, rather than around the park. It also
     should not preclude consideration of a range of modes for future services
     at the end points. The Initial Segment’s end points, Westlake Center
     Station at the north end and South 154th Street at the south end do not
     terminate in areas that would limit transportation improvements in the near
     future. Light rail is part of a broad range of local and regional
     transportation services that includes buses, vanpools, carpools, commuter
     rail, ferries, bus rapid transit and monorail. Commuter buses will be able
     to feed passengers into the Initial Segment at the South 154th Street station
     in Tukwila and other locations south including the airport. Transfer
     opportunities to the Sounder Commuter Rail may be provided at the
     Boeing Access Road station. In addition, Sound Transit is developing
     plans to extend the Initial Segment from its current end points to the
     airport at the south end and to Northgate at the north end.

   • A noncommitment of Federal funds for closely related projects, such as
     future extensions. By signing an FFGA for the Initial Segment, FTA is
     committing funds only for the Initial Segment. Future projects or
     extensions seeking Federal funds will be subject to the New Starts
     evaluation and rating process.

RECOMMENDATION

The constitutionality of Initiative 776 is on appeal to the Washington State
Supreme Court. Until the Supreme Court resolves the issue, there will be
                                                                                   35


uncertainty over an important revenue source for Sound Transit; albeit the portion
of those revenues that would go to the Initial Segment is dwarfed by the
importance of those revenues to other components of Sound Transit and future
capital projects. If Initiative 776 is ruled unconstitutional, Sound Transit’s use of
motor vehicle excise taxes would not be threatened. However, litigation that may
arise if the Washington State Supreme Court rules that Initiative 776 is
constitutional, may raise new issues on Sound Transit’s use of this local tax
revenue for the Initial Segment and other capital projects. These uncertainties,
combined with more than $400 million in cost growth for Sounder Commuter Rail
and Regional Express Bus, will present the Sound Transit Board with a challenge
to maintain the existing system as it is and undertake future capital projects.

We considered what the prudent course of action would be to protect the
taxpayer’s interests under these circumstances, especially given the current state of
the litigation, Sound Transit’s pending application for $500 million in Federal
funding for the light rail project, and the fact that the motor vehicle excise taxes
are identified as one local funding source for the light rail project in the submitted
Finance Plan. In our view, it is also relevant that the Washington State
Department of Licensing, which has been collecting the taxes as an agent for
Sound Transit, has indicated to Sound Transit that it will continue to do so until a
court of competent jurisdiction directs otherwise. This intent is reflected in Sound
Transit’s financial plan.
We, therefore, recommend that FTA require the Sound Transit Board of Directors
to formally agree, in advance of final approval of the FFGA, that: (1) alternative
local revenues will be committed promptly to the light rail project if and to the
extent that a funding deficit or shortfall is occasioned by the loss of excise tax
revenues and related fees, and (2) Sound Transit’s Finance Plan will be amended
promptly to reflect this commitment and identify alternative revenue source(s) in
the event it is determined that motor vehicle excise taxes and related fees are no
longer collectible. The intent of these recommendations are consistent with the
requirements of Section 10, Local Financial Commitment—Capital Costs, of the
FFGA.
It should also be recognized that under the terms of the FFGA, Sound Transit must
maintain its entire mass transit system at the current level of service, components
of which have experienced substantial recent cost increases. It goes without
saying that it will be incumbent on the Sound Transit Board of Directors to
arrange its finances and revenues in a manner that ensures the existing transit
system is maintained and operated at current levels of service. We recommend
that FTA monitor this closely.
Regarding future capital projects, including plans for other segments of or an
expansion of light rail in Seattle, they are not a part of the current FFGA
                                                                                  36


application. It is essentially a local decision regarding which of these projects
should be pursued, when they should be undertaken, and how they will be funded.
The fiscal impact of Initiative 776 is most pronounced with respect to these future
capital projects.

FTA AND OFFICE OF INSPECTOR GENERAL COMMENTS

In its July 3, 2003 response to the draft report (see Appendix I), FTA concurred
with the recommendation, stating that it will request in writing that the Sound
Transit Board of Directors formally agree to actions specified in our
recommendation. FTA also stated that it will not execute the FFGA prior to
written notification from the Board of their agreement, and that it will closely
monitor Sound Transit’s continuing financial responsibility to operate, maintain
and reinvest in its existing transit system as well as the Initial Segment, as is its
practice under all FFGAs. FTA’s comments and proposed actions are responsive
to our recommendation.

ACTION REQUIRED

FTA’s planned action on the recommendation is responsive. The recommendation
is resolved subject to follow-up requirements of Department of Transportation
Order 8000.1C.

We appreciate the courtesies and cooperation of representatives of FTA and Sound
Transit. If you have any questions concerning this report, please call me at (202)
366-1992 or Debra S. Ritt, Assistant Inspector General for Surface and Maritime
Programs at (202) 493-0331.
                                                                                 37




EXHIBIT A. Scope and Methodology
Our audit objectives were to:

      1. Determine whether Sound Transit and FTA adequately addressed cost,
         funding, and schedule issues identified in our April 2001 report, and
         evaluate the reasonableness of estimates for the revised project;
      2. Assess plans for safety and other issues related to running buses and
         trains in the downtown bus tunnel; and
      3. Assess the reasonableness of FTA’s determination that this project
         constitutes a stand-alone system and would not require additional
         segments.

To determine the reasonableness of the baseline cost estimate, we reviewed
supporting detail for each line item cost category. We also met with Sound
Transit officials to determine how they developed the baseline cost estimate, and
the key assumptions they relied on. We verified calculations, reviewed supporting
cost information, traced cost information from conversion summary sheets to line
item summary sheets, and supporting detail. In addition, we assessed the level of
contingency for each line item and compared them to industry standards provided
by the American Underground Association. Additionally, we reviewed the reports
and analyses of Sound Transit’s cost estimate by FTA’s two PMOCs, as well as
their supporting documentation. We followed this approach with input from OIG
engineer advisors.

We assessed the accuracy of cost information reported by Sound Transit and
reviewed Sound Transit’s new integrated financial management system. Sound
Transit uses this system to monitor the agency’s financial information for all lines
of business, including the Initial Segment. After obtaining an understanding of the
agency’s project control system, we requested that officials demonstrate the
system’s accuracy by submitting actual cost information during a walk-through of
the system. We then verified expenditures using this new system.

To determine the reasonableness of the project’s schedule, the OIG engineers
analyzed the latest Primavera baseline schedule that was cost-loaded with data as
of February 28, 2003, and reviewed monthly Sound Transit Agency Progress
Reports, dated September 2002 through February 2003. In addition, the engineers
had numerous discussions with FTA and the Sound Transit Lead Scheduler and
Project Control Manager. Using the Primavera Project Planner (P3) software, the
OIG engineers determined that Sound Transit has developed a realistic schedule.
They also identified the amount of float time included in construction tasks and


Exhibit A. Scope and Methodology
                                                                                 38


determined the reasonableness in accommodating delays in acquiring right of way
parcels, and in completing tunnel excavation activities and other construction
tasks.

To determine the reasonableness of project funding, we analyzed Sound Transit’s
Finance Plan for the Initial Segment. In addition to verifying calculations in this
document, we obtained an understanding of the agency’s revenue forecasting
model and tested its accuracy by comparing actual tax collections to date with
projected receipts. We also independently conducted a test in which we assumed
that Sound Transit would receive only enough motor vehicle excise tax revenue to
pay debt service on its existing bond issue.

We reviewed special reports prepared for FTA by two independent PMOCs. One
document was a Full Funding Grant Agreement Application Review and
Technical Capacity and Capability Spot Report, and the second document was an
Independent PMOC Review on Accuracy and Reasonableness of Sound Transit’s
Project Scope, Baseline Cost Estimate, and Project Schedule. We met with
officials from these two PMOCs, reviewed their reports, and analyzed supporting
documentation during a visit to the PMOCs’ offices in Los Angeles and
San Francisco.

We also reviewed a Financial Capacity Assessment Spot Report of the Initial
Segment prepared for FTA by an independent FMOC. This report analyzed
Sound Transit’s December 2002 Finance Plan and stress test. We met with
officials from this FMOC, reviewed the report, and analyzed documents
supporting the review of the Finance Plan and the stress test.

OIG’s engineers analyzed Sound Transit’s engineering cost estimates and
schedules. To assess plans to address safety issues in the Downtown Seattle
Transit Tunnel, OIG engineers assessed the agency’s risk analysis for joint bus-rail
operations and proposed safety measures to address these risks. These steps
included analysis of improvements that would result from the use of hybrid buses
in the transit tunnel. They also reviewed Sound Transit’s plans to construct an
exploratory test shaft on Beacon Hill and analyzed plans to construct the light rail
roadbed over obstacles in the Tukwila Freeway section. Finally, the OIG
engineers reviewed scheduling assumptions for construction activities on Sound
Transit’s critical path.

To assess the Initial Segment’s compliance with FTA stand-alone requirements,
we analyzed FTA annual reports that identified project justification and financial
commitment ratings for the Initial Segment as a New Starts project. We also
reviewed environmental reports prepared for the Initial Segment.




Exhibit A. Scope and Methodology
                                                                              39


Finally, we performed several other tasks. Specifically, we obtained and analyzed
Sound Transit’s Audited Financial Statements for FY 2000 and FY 2001, prepared
by Deloitte & Touche, LLP. We obtained and analyzed court documents related
to several lawsuits that named Sound Transit as a defendant or that the agency
joined as a friend of the court. We also met with local citizen groups, such as
Coalition for Effective Transportation Alternatives, and reviewed information and
analyses they provided. Finally we attended regularly scheduled meetings for
Sound Transit’s Board of Directors, Finance Committee, and Executive
Committee.

During our review, our Office of Legal Counsel provided advice on freedom of
information disclosure policies, performed reviews of legal documents, and
participated in discussions with Sound Transit and the Washington State Attorney
General’s Office on Initiative 776.

We conducted this review at Sound Transit and FTA Headquarters and Region X
offices in Seattle from September 20, 2002 to June 30, 2003, in accordance with
the Government Auditing Standards prescribed by the Comptroller General of the
United States.




Exhibit A. Scope and Methodology
                                                                            40




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS
REPORT
The following individuals contributed to this report.


   Name                                   Title

   Debra Ritt                             Assistant Inspector General for
                                           Surface and Maritime
                                           Programs
   Leslie Smith                           Program Director
   Sarah Batipps                          Project Manager
   Rodolfo Perez                          Senior Engineer Advisor
   Al Larpenteur                          Senior Auditor
   Diane Brattain                         Auditor
   Gloria Echols                          Auditor
   Thomas Lehrich                         Counsel
   Seth Kaufman                           Associate Counsel
   Bernard Fishman                        Auditor
   Mitch Behm                             Expert Financial Consultant




Exhibit B. Major Contributors to This Report
                                                                                                   41




  APPENDIX I. MANAGEMENT COMMENTS


                                                         Memorandum
            U.S. Department
            of Transportation
            Federal Transit
            Administration


Subject:     INFORMATION: Office of the Inspector General                 Date:     July 3, 2003
             Draft Report, Seattle Central Link Light Rail Project
              Initial Segment

  From:      Jennifer L. Dorn                                           Reply to
                                                                        Attn. of:
             Administrator
      To:    Alexis M. Stefani, Principal Assistant Inspector General
              for Auditing and Evaluation

      We have reviewed your June 30, 2003, Draft Report on the Audit of the Initial
      Segment of the Seattle Central Link Light Rail Project. We are pleased that your
      extensive analysis independently validated Sound Transit’s cost, schedule, and
      financing plan for the Initial Segment.

      We accept your recommendation that the Federal Transit Administration (FTA)
      require the Sound Transit Board of Directors to formally agree, in advance of the final
      approval of the Full Funding Grant Agreement (FFGA) for this project, to the
      following: to promptly commit alternative local revenues to the project if and to the
      extent that a funding deficit or shortfall is occasioned by the loss of excise tax
      revenues and related fees; and to promptly amend Sound Transit’s Finance Plan to
      reflect this commitment and identify alternative revenue source(s) in the event it is
      determined that the motor vehicle excise taxes and related fees are no longer
      collectible.

      We will request in writing that the Sound Transit Board of Directors formally agree to
      meet these requirements. FTA will not execute the FFGA prior to written notification
      from the Board of their agreement. Please be assured that, as is our practice under all
      FFGAs, FTA will closely monitor Sound Transit’s continuing financial responsibility
      to operate, maintain and reinvest in its existing transit system as well as the new light
      rail initial segment.

      Thank you for the opportunity to review and comment on this draft report.


  Appendix I. Management Comments
                                                                                                                                   42
    APPENDIX II. INITIAL SEGMENT’S CASH FLOW
The project's largest capital expenditures will occur in Fiscal Years 2005 and 2006.
                                                                                 Summary of Initial Segment's Cash Flow
                                                                        1997       1998       1999      2000     2001   2002       2003      2004        2005      2006    2007      2008       2009    Total
                          1
Capital Expenditures
  Right-of-way                                                             0.0        0.0       0.0       27.7   33.4    65.3       82.1        24.5       0.0       0.0     0.0          0.0     0.0     233.0
  Construction                                                             0.0        0.0       0.0        0.0    0.0     6.9       39.0       147.3     346.6     480.9   201.0         56.9     1.0   1,279.6
  Other                                                                    1.4       10.6      25.2       38.3   37.7    58.9       71.5        58.9      64.9      66.9    61.9         45.2    16.0     557.4
                                                     Total
                                                     Capital               1.4       10.6      25.2       66.0   71.0   131.2      192.5       230.7     411.6     547.8   262.9     102.1       17.0   2,070.0
Financing Costs2                                                           0.0         0.0       3.5       6.3    6.4      9.2      10.8         11.1      16.5     27.5    33.0         34.1    43.4    201.8

Central Link Start                                                         0.0         0.0       0.2       0.3    0.2      0.4       0.6          0.5       0.9      1.2     2.0          2.9     1.5     10.7

Downtown Seattle Transit Tunnel3                                           0.0         0.0       0.0       0.0    0.0      0.0       0.0          0.0       0.0      0.0     6.1         12.2     7.7     26.1

Project Reserve4                                                           0.0         0.0       0.0       0.0    0.0      0.0       0.0          0.0       0.0     30.6    31.6         32.6    33.6    128.3
TOTAL Baseline Cost Estimate                                               1.4       10.6      28.9       72.7   77.6   140.7      203.9       242.3     429.0     607.1   335.5     184.0      103.2   2,436.9
Sources of Capital Funds
                                                                                                                                                                                     6
Sound Transit Funds5                                                                                                                              Period covered by Initiative 776
 Transfers from operations & fund
    balances                                                               1.4       10.6       5.0       48.1   77.6     91.2     203.9       135.1      63.8      46.8    40.7      32.4       21.6     778.1
 Bonds                                                                     0.0        0.0       7.1        0.0    0.0      0.0       0.0        32.2     285.2     480.3   214.9      81.6       57.6   1,158.8
                                                     Total                 1.4       10.6      12.0       48.1   77.6     91.2     203.9       167.3     349.0     527.1   255.5     114.0       79.2   1,936.9
Federal Grants
  Sec 5309 New Starts: Link Initial
  Segment                                                                  0.0         0.0     16.9       24.5    0.0     49.5       0.0         75.0      80.0     80.0    80.0         70.0    24.0    500.0
TOTAL FUNDS AVAILABLE                                                      1.4       10.6      28.9       72.7   77.6   140.7      203.9       242.3     429.0     607.1   335.5     184.0      103.2   2,436.9
1.
   Budgeted capital expenditures include an allowance for cost growth.
2.
   Interest costs for $7 million in current bonds and $1.152 billion in future bonds to construct the Initial
Segment
3.
   Payments to King County Metro for Downtown Seattle Transit Tunnel.
4.
   The Reserve provides an additional allowance for unforeseen conditions and other variances and has to be approved by the Sound
Transit Board before use. This is a part of the $375 million in contingency and reserves mentioned earlier in the report. The remaining
$147 million is contained in the amount for Total Capital.
5.
   Sound Transit funds include cash transferred from operations and general fund balances as well as bond proceeds. For all capital projects in Phase 1, about
46 percent of the local share is financed with cash. The funds shown here for the Initial Segment are apportioned from total annual cash & bond funds available,
based on the Initial Segment’s share of total draws on these funds in a given year.
6
 . Our analysis estimates that approximately $114.70 million in motor vehicle excise tax revenues are included in these figures.


    Appendix II. Initial Segment’s Cash Flow
                 Appendix: Text-only Version of Figure 1
         Comparison of New Starts Light Rail Projects Cost Per Mile

              Millions
                 of
              Dollars
Seattle           $174
Dallas             $41
Denver             $46
Memphis            $37
Minneapolis        $58
North
Bergen           $238
Newark
City             $208
Portland          $60
Salt Lake
City              $60
San Diego         $73
Atlanta          $201
Jersey City      $103
St. Clair         $19
Los
Angeles          $151
